19-251

IN THE

fpupretue Court of .the Ziniteb 6tate5
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
V.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
♦
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

♦
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Am icus
Curiae of The National Association of Manufacturers in support of Petitioner
contains 2,716 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 25, 2019

S/ It/a.rikt

.

Martin S. Kaufman

